CERTIFICATE OF SERVICE
The undersigned certifies that, on this 30th day of July 2020, in addition to
filing the accompanying Petition for a Writ of Certiorari – together with an appendix
and a word-count certificate – via the Court’s electronic filing system, one true and
correct copy of the foregoing documents was served by U.S. Mail, postage pre-paid,
with a PDF courtesy copy served via electronic mail on the following counsel:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Email: SupremeCtBriefs@USDOJ.gov
The undersigned further certifies that, pursuant to this Court’s order dated
April 15, 2020, on this 30th day of July 2020, a single original of the accompanying
Petition for a Writ of Certiorari printed on 8.5x11 paper – together with an appendix
printed on 8.5x11 paper, a word-count certificate, and a check for $300.00 made out
to the Clerk – were served on the Court by hand delivery.
I declare under penalty of perjury that the foregoing is true and correct.
Executed July 30, 2020, at Washington, DC,
/s/ Lawrence J. Joseph
______________________________
Lawrence J. Joseph
Counsel for Petitioner

